CERTIFICATE OF SERVICE
NO. 19-588
Lori Madden-Grammer
Petitioner(s)
v.
Industrial Claim Appeals Office, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the POUDRE
VALLEY HOSPITAL AND COLORADO HOSPITAL ASSN. TRUST BRIEF IN OPPOSITION, by mailing three (3)
true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Bradley Russell Irwin
Irwin Fraley, PLLC
6377 S. Revere Parkway
Suite 400
Centennial, CO 80111
(303) 999-9000
birwin@coloradolawyers.com
Counsel for Lori Madden-Grammer

Grant Thomas Sullivan
Colorado Department of Law
Office of the Attorney General
1300 Broadway 6th Floor
Denver, CO 80203
(720) 508-6000
grant.sullivan@coag.gov
Counsel for Industrial Claim Appeals Office

Lucas DeDeus

December 4, 2019
SCP Tracking: Stratton-2629 Redwing Road, Suite 330-Cover Orange

